SCOTIABANK CREDIT CARD CARDHOLDER AGREEMENT
not agree with changes to be made to this Agreement.
The use of the Visa® and MasterCard® credit Cards
Refer to Section XIV.
issued by Scotiabank de Puerto Rico (the Bank) to the
The Card is the property of the Bank and the latter
Applicant or Applicants (referred to individually and/or
may cancel the Card at any time without previous
collectively as the Cardholder) shall be governed by
notice to the Cardholder, who agrees to return, at the
the following terms and conditions:
Bank’s request, any issued Card.
I. USE OF THE CARD
The Cardholder and its company shall use the Card for
the purchase or lease of merchandise and services in
establishments where the Card is accepted and to
obtain Cash Advances from the Bank or from any
other bank that may accept the Card, subject to such
limits as the Bank or the issuing bank may establish
from time to time.
The Cardholder authorizes the Bank to pay and
charge his/her Account for all Purchases or
merchandise, service and Cash Advances made with
the Card and the Cardholder agrees to pay the Bank
for all such Purchases and Cash Advances plus the
FINANCE CHARGES that are assessed on the
Cardholder’s Account, and any other charges that the
Cardholder may owe according to the terms of this
Agreement, which sums shall be payable in full or in
monthly installments in legal tender of the United
States of America.
II. CREDIT LIMIT
The initial credit limit granted by the Bank for the
Cardholder’s Account shall appear in a notice to be
sent with the Card. Also, the Credit Limit effective at
the date of each monthly billing statement shall appear
on the statement. If the Cardholder exceeds the Credit
Limit approved by the Bank, the Bank shall be entitled
to close the Account, cancel the Card, demand its
surrender or take possession of the Card. The
Cardholder upon demand shall pay any amount in
excess of the Credit Limit approved by the Bank. No
over-the-limit fee will be charged by the Bank. The
initial Credit Limit granted by the Bank for the
Cardholder’s Account can be reduced for not
complying with the Bank’s established credit
parameters and if any of the following conditions
occurs:
A. Inadequate Account management that is not in
accordance with Bank credit policies that may include:
one late payment, a returned check, over limit of the
established credit line.
B. Not using the credit Card for a period longer than 12
months.
C. Not activating the Card.
Cash Advance Limit: The maximum amount that will
be available for cash advances will be 20% of your
approved limit, if available.
III. CANCELLATION OF THE CARD
You may cancel your Account at any time by notifying
us in writing. You may also cancel your Card if you do

V. MONTHLY BILLING STATEMENT
The Bank will provide the Cardholder with a monthly
billing statement, containing all information required by
law.
VI. FINANCE CHARGES
The FINANCE CHARGES of the Cards are computed
only on the principal balance for purchase of
merchandise, services, Cash Advances and Balance
Transfers.
The monthly and annual rates are the following:
Card Type

APR for
Purchases

Monthly
(Periodic
Rate)
Purchases

APR
for Cash
Advances

Monthly
(Periodic
Rate) Cash
Advances

MasterCard
Visa

18.95%
19.99%
24.99%

1.5792%
1.6658%
2.0825%

22.99%
22.99%
24.99%

1.9158%
1.9158%
2.0825%

Gold
MasterCard

17.90%

1.4917%

22.99%

1.9158%

Visa Gold

14.99%
16.99%
19.99%
24.99%

1.2492%
1.4158%
1.6658%
2.0825%

14.99%
16.99%
19.99%
24.99%

1.2492%
1.4158%
1.6658%
2.0825%

APR (Annual Percentage Rate)
The applicable annual percentage rate for MasterCard
and Visa on Purchases, Cash Advances and Balance
Transfers can be 18.95%, 19.99% or 24.99%. This
rate is established according to your experience upon
approval of your application, on the free market and on
the regulation in effect.
The applicable annual percentage rate for Visa Gold
on Purchases, Cash Advances and Balance Transfers
can be 14.99%, 16.99%, 19.99% or 24.99%. This rate
is established according to your experience upon
approval of your application, on the free market and on
the regulation in effect.
A. The Bank determines the FINANCE CHARGES you
will pay for the purchase of merchandise and services
as follows:
1. The Average Daily Balance for Purchases is
calculated by adding the outstanding balance at the
end of each day during the preceding billing cycle and
dividing that sum by the number of days in that billing
cycle. The outstanding balance at the end of each day
is determined by (a) adding to the previous day’s
outstanding balance any Purchase posted on that day,
and (b) subtracting from the previous day’s
outstanding balance any payment received or credit
posted in relation to Purchases during that day.

2. Then it multiplies the Average Daily Balance by the
actual monthly periodic rate.
B. The Bank determines the FINANCE CHARGES you
will pay for Cash Advances as follows:
1. The Average Daily Balance for Cash Advances is
calculated as prior stipulated for merchandise and
services using a monthly periodic rate.
2. Then it multiplies the Average Daily Balance by the
actual monthly periodic rate.
3. There is no grace period to avoid paying FINANCE
CHARGES for Cash Advances obtained by the
customer.
C. No FINANCE CHARGES will be assessed on
Purchases of merchandise and service during a
monthly billing cycle if the Cardholder pays the
balance in full on or before the due date shown on the
billing statement. FINANCE CHARGES will be
assessed on Cash Advances or if you use a
Convenience Check from the date the Cash Advance
is posted to the Cardholder’s Account until it is repaid
in full. BALANCE TRANSFERS and CONVENIENCE
CHECKS are handled as Cash Advances.
VI. MINIMUM PAYMENT
The Cardholder may pay the full amount or a portion of
the New Balance show on his/her monthly billing
statement but must pay at least the minimum monthly
payment, calculated as follows: 3% of the new
balance plus any amount due and/or amount over the
approved limit, or $25, whichever is greater.
VII. APPLICATION OF PAYMENTS
If the Cardholder pays an amount in excess of the
required Minimum Payment, the excess shall be
applied against the principal amount with the highest
interest rate. The Bank will credit the payment made
by the Cardholder the same day it is received when it
is made: (a) in cash or in check through one of the
Bank branch offices, prior to the closing time; (b)
electronically before 5:00 p.m. Monday through
Saturday; or (c) by mail together with the payment
coupon to the address listed on the account statement
of the Cardholder, as long as the payment is received
before 5:00 p.m. from Monday through Friday.
VIII. CREDIT LINE AVAILABILITY
If the payment is not made in cash, the Bank will defer
the availability of funds equivalent to the amount of the
payment, for a period of up to five (5) business days.
This means that although your payment will be
credited, your available balance will not reflect the
payment amount until the five days period has
elapsed. This will not entail additional charges to your
account for Interest Charges.
IX. ANNUAL MEMBERSHIP FEE
The Cardholder is subject to pay an annual fee, as
well as a fee for each additional Card. The fees apply
even if the Cardholder and/or the authorized persons
do not use the Card(s). The fees may change over
time, at the Bank’s discretion. You may cancel your

Card if you do not agree with an annual fee increase.
Refer to Section XIV of this Agreement.
The following fees apply:
Card Type
MasterCard
Gold MasterCard
Visa
Visa Gold

Annual Fee
$29
$49
$29
$45

Additional Card Fee
$9
$9
$9
$9

These charges will not apply to those customers, who
at the time of applying for the credit product, are
identified as active members of the armed forces or a
covered dependent, as specified by the Military
Lending Act, for as long as the customer continues to
be in active military service.
X. OTHER CHARGES
For all cards there is a $25.00 late payment charge if
the Minimum Payment is not received by the payment
due date. Any subsequent violations that occur after
the first late payment, over the next 6 months, may be
subject to a $35 late payment fee. After the 6-month
period has elapsed, the next late payment violation will
be subject to a $25 fee and another 6-month period
will commence where late payment violations may be
subject to a $35 fee, and so on. In any case, the
amount of the fee will not exceed the minimum
monthly payment amount for the billing statement in
which your monthly payment was late.
For all Cards, a 2% fee for Cash Advance or Balance
Transfer amounts will be charged to your Account
with a maximum fee of $10.00 and minimum of $2.00
for each Cash Advance obtained, be it made by ATM,
branch, Cash Advance or from Convenience Checks.
Foreign Transaction Fee: A fee of 1% of the
transaction in USD will apply to each transaction
made in a foreign currency, and is additional to any
other applicable fees.
If you pay by check and the check payment is returned
unpaid, an administrative fee of $10.00 will be
assessed every time the check is returned unpaid.
These charges will be added to your balance account
for purchase of merchandise and services. These fees
may vary from time to time at the Bank’s discretion
with prior notification.
One Fee for Violations Resulting From Single
Event or Transaction: We will not impose more than
one of the above-described fees for violating the terms
of your account based on a single event or transaction.
For example, if your payment is returned after the date
it was due as shown on your billing statement as a
result of non-sufficient funds or other reason, we will
impose a late payment fee, a returned payment fee or
a non-sufficient funds fee but not all of them because
the late payment and the returned payment have
resulted from the same event or transaction.

XI. SPECIAL RATE FOR APPLICANTS COVERED
BY THE MILITARY LENDING ACT (MLA)
Those applicants who, at the time of applying for an
applicable credit product, are identified as (as
established by the Bank) an active member of the
armed forces or a covered dependent, will be granted
a special annual percentage rate (APR) of 6.00%
(monthly periodic rate of 0.5000%). This special rate
will be considered as part of the military annual
percentage rate (MAPR), which, as established by the
Military Lending Act, will not exceed a 36.00%
(MAPR). This special rate will be provided to the
customer and covered dependents for as long as
he/she remains in active military service. Once this
service is completed the current applicable Annual
Percentage Rate (APR) will apply.
XII. DEFAULT APR
Default Rate: The APR that will apply to the Account
balance, including new Purchases, Cash Advances
and Balance Transfers, can increase to 24.99% or
28.99% APR, subject to your credit behavior score if
any of the following conditions occurs:
A. The Minimum Payment is not received within 60
days of the due date on the account statement.
B. Inadequate account management that is not in
accordance with Bank credit policies that may include:
one late payment, a returned check, over limit of the
established credit line, and non-compliance with the
credit parameters established by the Bank. The Bank
will provide previous notices as required by law before
the implementation of default rates. The default rate
will revert to the regular APR when six (6) consecutive
Minimum Payments are received by the due date.
C. The default APR will not apply to those customers
who at the time of applying for the applicable credit
product were identified by the Bank as active members
of the armed forces or a covered dependent as
required by the Military Lending Act. This benefit will
last until the covered borrower is no longer in active
military service.
XIII. LOSS OR THEFT OF THE CARD
In the event of loss or theft of the Card, the Cardholder
shall promptly notify the Bank by telephone 787-7664999 (toll free: 1-877-766-4999) 24 hours, 7 days a
week, or at 1-800-847-2911 (United States); or by
sending a fax to 787-704-6510. The Cardholder will
complete and submit such forms or reports as the
Bank may require. The Cardholder’s liability for
unauthorized use of the Card will not exceed the
lesser of $50.00 or the amount of money, property,
labor or services obtained by the unauthorized use of
the Card if the customer notified the Bank within two
days of discovering the loss.

XIV. BALANCE INSURANCE
The Cardholder can apply for credit plan insurance, in
which you will insure the Account balance up to a
maximum of $10,000. This is optional; the credit plan
insurance is not a requirement to obtain the Card.
XV. ACCELERATION OF THE DEBT
The Bank may accelerate the maturity of any part or al
l of the amount owed under this Agreement under the
occurrence of any of those circumstances prescribed
by law.
XVI. AMENDMENTS
The Bank shall have the right to amend the terms and
conditions at any time by giving written notice to the
Cardholder prior to the effective date of the
amendment as required by applicable regulation. If the
Cardholder does not accept the amended terms and
conditions stated in the written notice, the Cardholder
may cancel the Agreement in accordance with the law
by following the cancellation procedure described in
the written notice. If you do not agree with the
amendments and want to cancel the Agreement, you
must notify us in writing before the date the changes
become effective and continue to pay the balances
owed according to the terms and conditions previously
in effect.
XVII. MISCELLANEOUS PROVISIONS
A. The Bank is hereby authorized by the Cardholder to
investigate the Cardholder’s credit references.
B. The Cardholder may apply for additional Cards
under the Cardholder’s current Account number for
use by other persons designated by the Cardholder, in
which case the Cardholder shall be severally liable for
the payment of all Purchases and Cash Advances
made through the use of the additional Cards, and of
the FINANCE CHARGES pertaining thereto. If the
Cardholder wants to revoke the authorization given by
him/her to other people to use the Cards, the
Cardholder must notify those persons of the revocation
and obtain and surrender to the Bank the Cards issued
to such people.
C. The Bank’s failure to exercise any of its rights under
the contract shall not be deemed to be a waiver of
such rights.
D. Joint accounts: You shall be jointly and severally
liable for the total payment of the Purchases and Cash
Advances made with your Cards. The Bank can
require the appearance and signature of all the
purchasers to process certain instructions or requests,
which include, but are not limited to, (1) a request for
increase or reduction in the Credit Limit, (2) the
issuance of additional Cards, and (3) change of
address to which the Account Statement of your Card
is mailed. You agree to release and indemnify the
Bank of all responsibility due to damages, losses or
expenses that arise as a result of any action executed
by the Bank in compliance with the instructions given
by any of you.

E. The Bank is not responsible if a Purchase or Cash
Advance on your Account is not approved either by the
Bank or by a third party, even if you have sufficient
credit available. The Bank may limit the number of
Purchases or Cash Advances that may be approved in
one day. If the Bank detects unusual activity in your
Account, it may temporarily suspend your credit
privileges until it can verify that the transaction is
legitimate. The Bank may approve Purchases
or Cash Advances that cause the balance to exceed
your Credit Limit without waiving any of its rights under
this Agreement.
F. If any clause or part thereto of this Contract is
annulled by Court or becomes ineffective by provisions
of law or regulations, the remaining provisions of this
Contract shall not be affected and shall continue in full
force and effect.
G. This Contract shall be interpreted under the laws of
the Commonwealth of Puerto Rico and the currency let
out herein shall be United States dollars.
H. You have no obligation to accept this Card, nor will
you be held responsible for any of the charges, unless
you choose to accept it. Use of this Card shall
constitute its acceptance with the terms and conditions
of this Agreement. If you choose not to accept the
Card, you should notify the Bank within 30 days after
receiving this Agreement without having used it. To
notify, please call 787-766-4999 or toll free 1-877-7664999 or write to: Scotiabank de Puerto Rico, PO Box
362230, San Juan, PR 00936-2230.
XVIII. BILLING ERRORS
What To Do If You Think You Find A Mistake On Your
Statement
If you think there is an error on your statement, write to
us at:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230
You may also contact us on the Web:
scotiabankpr.com.
In your letter, give us the following information:
• Account information: Your name and Account
number.
• Dollar amount: The dollar amount of the suspected
error.
• Description of problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us within 60 days after the error
appeared on your statement.

You must notify us of any potential errors in writing (or
electronically). You may call us, but if you do we are
not required to investigate any potential errors and you
may have to pay the amount in question. While we
investigate whether or not there has been an error, the
following are true:
1. We cannot try to collect the amount in question, or
report you as delinquent on that amount.
2. The charge in question may remain on your
statement, and we may continue to charge you interest
on that amount. But, if we determine that we made a
mistake, you will not have to pay the amount in
question or any interest or other fees related to that
amount.
3. While you do not have to pay the amount in
question, you are responsible for the remainder of your
balance.
4. We can apply any unpaid amount against your
Credit Limit.
Your Rights If You Are Dissatisfied With Your
Credit Card Purchases
If you are dissatisfied with the goods or services that
you have purchased with your credit Card and you
have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the
remaining amount due on the Purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the Purchase price must have been
more than $50. (Note: Neither of these are necessary
if your Purchase was based on an advertisement we
mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your credit Card for the
Purchase. Purchases made with Cash Advances from
an ATM or with a Convenience Check do not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still
dissatisfied with the Purchase, contact us in writing at:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230.
You may also contact us on the Web:
scotiabankpr.com. While we investigate, the same
rules apply to the disputed amount as discussed
above. If you owe an amount and you do not pay we
may report you as delinquent.

IMPORTANT INFORMATION ABOUT
PROCEDURES TO OPEN A NEW ACCOUNT

NOTICE TO THE ASSIGNEE
DO NOT SIGN THIS CONTRACT BEFORE YOU
READ IT OR IF IT CONTAINS BLANK SPACES.
YOU ARE ENTITLED TO A COPY OF THIS
CONTRACT. UNDER THE PRESENT LAW
YOU HAVE THE RIGHT TO PAY IN ADVANCE THE
FULL AMOUNT DUE.

To help the government in their fight against terrorism
and money laundering activities, federal laws require
that all financial institutions obtain, verify and maintain
the identification information of each person who
opens a new account. What does this signify to you:
when you open an Account we will ask your name,
address and date of birth and any other information
that could help us to identify you. Also, we may ask for
your license number and any other document that
identifies you.
NOTICE TO THE CARDHOLDER
The Assignee receiving or acquiring this retail
installment Contract or promissory note related there
to shall be subject in equal conditions, to any claim or
defense that the buyer may initiate against the seller.
The assignee of the Contract shall have the right to file
against the seller all the claims and defense that the
buyer may raise against the seller of the goods or
services.

Cardholder (Applicant):

Date:

Cardholder (Co-Applicant):

Date:

FOR BANK USE ONLY
Account Number

By: _______________
Officer’s Signature

® Registered Trademark of the Bank of Nova Scotia. Member FDIC. OCIF Lic. 22
® Visa is a registered trademark of Visa International Service Association.
® MasterCard is a registered trademark of MasterCard International Incorporated.
Rev 2/2019
MCVICA Puerto Rico 03/2015

SCOTIABANK DE PUERTO RICO
PO BOX 362230
SAN JUAN, PR 00936-2230

Disclosure Statement
Interest Rates and Charges

Annual Percentage Rate (APR) for
Purchases

Visa® and MasterCard®

18.95%,
19.99% or
24.99%

14.99%,
16.99%, 19.99%
or 24.99%

Gold MasterCard

17.90%

This rate is established according to your experience upon approval of your application, on the free market
and the regulation in effect. Those applicants who, at the time of application are identified as active members
of the Armed Forces as established by the Military Lending Act (MLA) or a covered dependent, will be
granted a 6.00% annual percentage rate (APR), for as long as he/she remains on active duty. Once the
member of the armed forces ceases to be in active military service, the special rate granted will be changed
to the current applicable annual percentage rate (APR).

22.99% or
24.99%
APR for Balance Transfers and Cash
Advances

Visa Gold

14.99%,
16.99%,
19.99% or
24.99%

22.99%

This rate is established according to your experience upon approval of your application, on the free market
and the regulation in effect. Those applicants who, at the time of application are identified as active members
of the Armed Forces as established by the Military Lending Act (MLA) or a covered dependent, will be
granted a 6.00% annual percentage rate (APR), for as long as he/she remains on active duty. Once the
member of the armed forces ceases to be in active military service, the special rate granted will be changed
to the current applicable annual percentage rate (APR).

24.99% or 28.99%, subject to your credit score.

Penalty APR: When it Applies and
When it Does Not Applies

This APR may be applied to your account if:
o The Minimum Payment is not received within 60 days of the due date on the account
statement or during two (2) consecutive billing periods.
o Inadequate account management that is not in accordance with Bank credit policies that may
include: one late payment, returned check, over limit of the established credit line, and noncompliance with the credit parameters established by the Bank.
For How Long Will the Penalty APR Apply? If your APR is increased for any of these reasons, the
Penalty APR will apply until you make six (6) consecutive Minimum Payments when due and do not
exceed your credit limit during that time period.
This Penalty APR will not apply as long as the cardholder is covered by the provision of the Military
Lending Act (MLA).

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging
interest on Cash Advances and Balance Transfers on the transaction date until the amount is repaid in
full. Balance Transfers and Convenience Checks are handled as Cash Advances.

Cash Advance Limit

The maximum amount that will be available for cash advances will be 20% of your approved limit, if
available.

For Credit Card Tips from The
Federal Reserve Board

To learn more about factors to consider when applying for our using a credit card, visit the Federal
Reserve Board website at: http://www.federalreserve.gov/creditcard

Fees
Visa and MasterCard

Visa Gold

Gold MasterCard

$29
$9
$0

$45
$9
$0

$49
$9
$0

Annual Fee
* For each additional Card
* Customers covered by the Military
Lending Act (MLA)
Cash Advances and Balance
Transfers

A 2% fee for Cash Advances and Balance Transfers will be charged to your Account, with a minimum
fee of $2.00 and a maximum fee of $10.00.

Foreign Transaction
(Currency Exchange)

A 1% transaction fee of the amount in USD will apply to each transaction made in a foreign currency,
and is additional to any other applicable fee.

Returned Payment
Late Payment

$10
Up to $35

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases and new transactions). See your
Cardholder Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Cardholder Agreement.
For more information you may contact a TeleScotia Representative at (787) 766-4999 or 1-877-766-4999. You may also contact us at PO Box
362230, San Juan Puerto Rico 00936-2230.
Signature (Applicant): ___________________________________________________________________ Date: ___________________
Signature (Co-Applicant): ________________________________________________________________ Date: ___________________

® Registered Trademark of the Bank of Nova Scotia. Member FDIC. OCIF Lic. 22.
®Visa is a registered trademark of Visa International Service Association.
®MasterCard is a registered trademark of MasterCard International Incorporated.
2/2019

